Report No. D-2009-097           July 30, 2009




    Data Migration Strategy and Information
     Assurance for the Business Enterprise
             Information Services
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ATO            Authority to Operate
BEA            Business Enterprise Architecture
BEIS           Business Enterprise Information Services
BTA            Business Transformation Agency
BTG            Business Transformation Guidance
CA             Certifying Authority
DAA            Designated Accrediting Authority
DCAS           Defense Cash Accountability System
DCD/DCW        Defense Corporate Database/Defense Corporate Warehouse
DDRS           Defense Departmental Reporting System
DFAS           Defense Finance and Accounting Service
ETP            Enterprise Transition Plan
FFMIA          Federal Financial Management Improvement Act of 1996
FMFIA          Federal Managers Financial Integrity Act of 1982
GAO            Government Accountability Office
OMB            Office of Management and Budget
POA&M          Plan of Action and Milestones
                                     INSPECTOR GENERAL 

                                    DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON, VIRGINIA 22202-4704 


                                                                                     July 30, 2009


MEMORANDUM FOR DEPUTY CHIEF MANAGEMENT OFFICER
               DIRECTOR, BUSINESS TRANSFORMATION AGENCY

SUBJECT: Data Migration Strategy and Information Assurance for the Business Enterprise
         Information Services (Report No. D2009-097)


We are providing this report for review and comment. We performed this audit because DoD is
implementing the Business Enterprise Information Services (BEIS) system to consolidate
financial information and provide Enterprise-wide financial reporting. We considered
management comments on a draft of this report in preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The comments
from the Assistant Deputy Chief Management Officer were partially responsive. Therefore, we
request additional comments on Recommendations A.l., A.2., B.l., B.2., BJ., C.l., and C.2. by
August 31, 2009. See the recommendations table on page ii.

Please provide comments that conform to the requirements of DoD Directive. Ifpossible, send
your comments in electronic format (Adobe Acrobat file only) to auddbo@dodig.mil. Copies of
your comments must contain the actual signature of the authorizing official. We cannot accept
the / Signed / symbol in place of the actual signature. If you send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
601-5868 (DSN 329-5868).



                                    t~a/J1~
                                    PatriciaA.
                                             Marsh, CPA 

                                  Assistant Inspector General 

                                  Defense Business Operations 

Report No. D2009-097 (Project No. D2008-D000FB-120.000) 	                              July 30, 2009


              Results in Brief: Data Migration Strategy
              and Information Assurance for the
              Business Enterprise Information Services
                                                          	 coordinate with the Defense Finance and
What We Did                                                  Accounting Service (DFAS) to develop a
We audited the Business Enterprise Information               data migration strategy identifying key
Services (BEIS) system to determine whether it               milestones and a critical path for
had a comprehensive data migration plan, met                 transferring the functionality of 13 legacy
information assurance (Federal Information                   systems to BEIS;
Security Management Act) standards, and met               	 separate the roles of Certifying Authority
the standards for the Federal Financial                      and Designated Accrediting Authority by
Management Improvement Act of 1996                           assigning them to two individuals;
(FFMIA).                                                  	 develop a comprehensive security plan that
                                                             fulfills OMB and DoD information
What We Found                                                assurance requirements and develop
We determined that the Business                              procedures for testing those requirements
Transformation Agency (BTA) internal controls                annually;
were not adequate. We identified internal                 	 develop a methodology for annually
control weaknesses in the BTA data migration                 reviewing the BEIS “family of systems” for
strategy, information assurance, and FFMIA                   compliance with FFMIA and Federal
compliance. Specifically, BTA did not:                       Managers Financial Integrity Act of 1982;
 have an effective data migration strategy for           	 assess whether the BEIS “family of
   Components to follow for converting legacy                systems” complies with FFMIA mandatory
   systems to the Business Enterprise                        and technical Core Financial Management
   Architecture (BEA);                                       System requirements and standards; and
	 determine the sequence or schedule for when            	 develop a remediation plan for correcting
   the functionality of 13 legacy systems would              any deficiencies noted.
   be transferred to BEIS;
	 separate the certification and accreditation           Management Comments
   processes, thereby creating a potential conflict
   of interest;                                           and Our Response
	 have a security plan that met Office of                The Assistant Deputy Chief Management
   Management and Budget (OMB) and DoD                    Officer (Assistant Deputy) responded and
   requirements; and                                      generally agreed with developing a data
 test BEIS for compliance with FFMIA.                    migration strategy and coordinating with
Implementing the recommendations would                    DFAS on converting legacy systems
improve internal controls and BEIS efforts on             functionality. The Assistant Deputy
data migration, information security, and                 recognized the need for adhering to security
FFMIA compliance.                                         guidelines, but stated DoD’s position is that
                                                          each program maintain its own comprehensive
What We Recommend                                         security plan. We request that the Assistant
We recommend that the Director, Business                  Deputy reconsider DoD’s position on not
Transformation Agency;                                    assessing BEIS against FFMIA requirements
 revise the Business Transformation                      because system change requests may have
  Guidance to include a detailed, standardized            affected its compliance. We request
  methodology prescribing best practices for              additional comments by August 31, 2009.
  data migration from DoD legacy systems to               Please see the recommendations table on the
  the BEA structure;                                      back of this page.


                                                      i
Report No. 02009-097 (Project No. D2008-DOOOFB-120.000)                   July 30, 2009




Recommendations Table


Management                     Recommendations                 No Additional Comments
                               Requiring Comment               Required
Assistant Deputy Chief         A.I., A.2., 8.1., 8.2., 8.3.,
Management Officer             C.I., and C.2.

Please provide comments by August 31, 2009.




                                            2
Table of Contents
Results in Brief                                                                    i

Introduction                                                                        1

       Objectives                                                                   1     

       Background                                                                   1     

       Review of Internal Controls                                                  2


Finding A. Business Transformation Agency Data Migration Strategy                   4


       Recommendations, Management Comments, and Our Response                       7


Finding B. Information Assurance                                                    9


       Recommendations, Management Comments, and Our Response                      11 


Finding C. Financial Reporting Compliance                                          13 


       Recommendations, Management Comments, and Our Response                      14 


Appendices

       A. 	Scope and Methodology                                                   16 

              Prior Coverage                                                       17     

       B. Future Businesses Enterprises Information Services Systems Transitions   18 

       C. Glossary of Technical Terms 	                                            19 


Management Comments

       Assistant Deputy Chief Management Officer Comments 	                        21 

Introduction
We performed this audit because DoD is implementing the Business Enterprise Information
Services (BEIS) system to consolidate financial information and provide Enterprise-wide 1
financial reporting. BEIS will build upon existing infrastructure to provide timely, accurate, and
reliable business information from across DoD to support auditable financial statements, as well
as provide detailed information for management in support of the warfighter.

Objectives
Our audit objectives were to determine whether BEIS:

       	 had an adequate data migration plan,

       	 met information assurance (Federal Information Security Management Act) standards,
          and

       	 met the standards for the Federal Financial Management Improvement Act of 1996
          (FFMIA).

    See Appendix A for our scope and methodology.

Background
The FY 2005 National Defense Authorization Act required DoD to develop an enterprise
architecture, a transition plan, and a governance plan for business systems modernization. To
accomplish these tasks, the Deputy Secretary of Defense established the Business
Transformation Agency (BTA) on October 7, 2005. The BTA mission is to guide the
transformation of business operations throughout DoD and to deliver Enterprise-level
capabilities that meet warfighter needs. BTA also develops and facilitates the DoD-wide
processes for the maintenance, refinement, approval, and implementation of the Business
Enterprise Architecture (BEA).

Business Enterprise Architecture
The BEA is the DoD information infrastructure, and it includes processes, data standards, and
business rules. It defines DoD’s business transformation priorities, business capabilities, and the
combinations of systems and initiatives that enable these capabilities. The BEA guides the
evolution of DoD business capabilities Enterprise-wide and explains what DoD must do to
achieve interoperable business processes. The BEA incorporates applicable laws, regulations,
policies, and standards.

Enterprise Transition Plan
BTA is responsible for developing, maintaining, and executing the Enterprise Transition Plan
(ETP). The ETP describes the transformation of business operations within DoD as being driven
by business enterprise priorities and business capabilities. It establishes a program baseline to
measure progress, and it provides DoD internal and external stakeholders with a comprehensive
view of the goals, objectives, and timeframes for DoD initiatives to convert to the BEA. BTA
issues the ETP in March and September annually.



1
 “Enterprise-wide” refers to DoD and all of its organizational entities. See the Glossary of Technical Terms at
Appendix C for the definition of this and other technical terms.


                                                         1

Financial Management Improvement
According to the September 2008 ETP, from FY 2007 to FY 2009 DoD was to spend about
$930.7 million for implementing Defense Business Transformation. Of that amount, DoD
planned to spend about $132.3 million on improved financial management. The DoD strategy
for improved financial management included implementing BEIS.

BEIS business objectives were to:

   	 create financial data that can be tracked throughout the enterprise,

   	 enhance and expand access to authoritative sources of financial management information
      for timely analysis (DoD Enterprise-level business intelligence),

   	 enable the linkage of resources to business outcomes,

   	 implement standard data elements for financial reporting, and

   	 eliminate existing financial management weaknesses and deficiencies.

The BEIS was based on a “family of systems” concept where existing Defense Finance and
Accounting Service (DFAS) legacy financial system capabilities were transferred into the DoD
enterprise financial solution. By FY 2020, BTA planned to transfer the functionality of 13
DFAS legacy systems into BEIS (see Appendix B). The BEIS current family of systems
included the Defense Corporate Database/Defense Corporate Warehouse (DCD/DCW), the
Defense Departmental Reporting System (DDRS), and the Defense Cash Accountability System
(DCAS).
   	 DCD is a financial and accounting database that captures, edits, and validates the
       required source data, facilitates research and corrections, stores the data in a shared
       database, and summarizes the data at the level required for reporting. DCW contains data
       repositories that assist in data consolidation, standardization, and simplification and that
       improve the automated support provided by DCD. DCW summarizes the data required
       for producing standard agency-wide and departmental reports. DCW retrieves budget,
       accounting, and other functional data to support budget formulation, financial contract
       administration, cost accounting, and managerial accounting activities.

   	 DDRS includes three separate modules. The DDRS Audited Financial Statements
      module produces quarterly and annual financial statements for all of DoD. The Data
      Collection module captures financial data from nonfinancial feeder systems to support
      the financial statements and to report data from external DoD sources. The Budgetary
      module produces monthly and quarterly budgetary reports.

   	 DCAS reports expenditure data to the Treasury and includes the processing of
      transactions by others and transactions for others, the management of interfund and
      intragovernmental activity, and the performance of other Treasury and departmental
      functions.
Review of Internal Controls
We identified internal control weaknesses for BEIS as defined by DoD Instruction 5010.40,
“Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006. BTA did not have
an effective data migration strategy because BTA transition guidance focused on Enterprise-level
implementation, instead of providing the Components with sufficient detail and a standard
methodology for aligning their systems to the BEA. Also, the BTA strategy lacked best


                                                2

practices for data migration and its data migration schedule for BEIS was unrealistic, because
BTA planned to transfer 13 DFAS legacy systems to BEIS by FY 2020, but it had not
coordinated with DFAS to determine when and the sequence in which the legacy systems’
functionality should transfer to BEIS (Finding A).

A potential conflict of interest existed in the BEIS information assurance certification and
accreditation process, because BTA designated the same individual to serve as both Certifying
Authority and Designated Accrediting Authority for the BEIS family of systems. The BEIS
security plan did not meet the requirements specified by the Office of Management and Budget
(OMB) and DoD (Finding B). BTA did not fully comply with financial reporting requirements
of the FFMIA and the Federal Managers Financial Integrity Act of 1982 because BTA had not
developed a methodology for performing a complete FFMIA assessment of the BEIS family of
systems since obtaining system ownership in 2005 (Finding C).

Implementing the recommendations would improve internal controls and BEIS efforts on data
migration, information security, and FFMIA compliance. We will provide a copy of the final
report to the senior official responsible for internal controls at BTA.




                                                3

Finding A. BTA Data Migration Strategy
BTA did not have an effective data migration strategy because its transition guidance focused on
Enterprise-level implementation, instead of providing the Components with sufficient instruction
and examples of a standard methodology to use for aligning their systems to the BEA structure.
The guidance also lacked best practices for data migration and its data migration schedule for
BEIS was unrealistic. BTA planned to transfer the functionality of 13 DFAS legacy systems to
BEIS by FY 2020, but it had not coordinated with DFAS to determine when and the sequence in
which the legacy systems’ functionality should transfer to BEIS. Without data migration best
practices, detailed instructions for a standard methodology, and examples for the Components to
follow, the BTA data migration strategy jeopardized the Components’ ability to deploy
consistent financial management systems that could achieve BEA compliance. In addition, the
lack of coordination with DFAS means that it may take 11 years for BTA to transfer legacy
system functionality to BEIS and may cost the DoD $231 million. Given the rapid changes in
technology, DoD’s current migration plan may not support its goal of realizing financial
management improvement and access to accurate, reliable information under the BEIS family of
systems in a timely manner.

BTA Transition Guidance
The BTA data migration strategy was not effective because BTA transition guidance focused on
the Enterprise-level implementation, did not include sufficient instruction and examples of a
standard methodology for the Components to follow for converting their systems to the BEA
structure, and lacked data migration best practices. BTA issued the ETP and the Business
Transition Guidance (BTG) to provide needed information on converting systems to the BEA
structure.

Enterprise Transition Plan
The ETP focused on the Enterprise-level implementation and lacked detailed process steps to
follow for converting data from the current structure to the BEA target structure. The ETP gave
DoD internal and external stakeholders an overview of the systems and initiatives that could
improve business operations; however, the ETP cannot be used as a plan for data migration.
Data migration is complicated because of the need to convert data from a wide variety of
transactional, legacy, and third-party data sources into a new structure. Although the ETP
described what DoD is trying to achieve and provided a high-level synopsis of DoD-wide goals,
objectives, and proposed budget costs, it did not include a methodology for converting data and
systems into a new structure. Because the BEA specified requirements for data elements,
business rules, and standards, a transition plan should include a similarly detailed process for
converting Component system functionality to the target structure.

Business Transformation Guidance
The Component-level instructions for implementing the BTG five-step process for the Defense
Business Transformation lacked sufficient detail to provide the Components with a standard
methodology for aligning their systems to the BEA. BTA issued the BTG in July 2007 to
clarify roles and to establish common processes at the enterprise, Component, and program
levels.

The five-step process includes:

   1. setting priorities (identifying desired outcomes),
   2. analyzing and approving solutions,


                                                4

   3. building and refining a required architecture and transition plan,
   4. defining and funding the programs, and
   5. executing and evaluating the business transformation.

The BTG focused on the Enterprise-level transformation, and the five-step process lacked
detailed instructions for the Components to follow. For example, on the setting priorities step,
the Enterprise-level instructions included a discussion of how BTA determined Enterprise-level
priorities, along with a flowchart on identifying problems, mission needs, material weaknesses,
unanswered questions, and desired outcomes. However, the Component and program levels did
not feature those items and did not show a detailed flowchart. In addition, the BTG stated that
each Component is responsible for establishing its Component-level priorities to support and
complement the business enterprise priorities. Specifically, the Component instructions stated:

               Components nominate Business Enterprise Priority candidates, review them, and
               provide additional input to help define each Business Enterprise Priority. When
               Business Enterprise Priorities are identified at the DoD Enterprise level, each
               Component aligns the appropriate systems, standards, architectures, and plans to
               support achievement of Business Priority objectives.

               Components define Component priorities to address Component-specific
               mission needs or problems that either complement Business Enterprise Priorities
               or those not addressed by them [sic].

These instructions were not at the same level of detail as the Enterprise-level instructions. The
BTG lacked clarity on how a Component would use the above instructions for aligning systems,
standards, architectures, and plans to achieve the business priority objectives. In addition, the
BTG stated that Components should consider:

      complexity of the need, problem, or solution,
      potential benefit of improving one or more business capabilities,
      level of risk,
      “breadth of the elements” for the perceived solution, and
      speed of capability improvement.

The BTG did not elaborate on these considerations or provide examples of how to apply them.
Although the BTG provided examples of a strong and a weak business priority candidate, none
of the BTG examples demonstrated the entire five-step process. Including an example that starts
with the first step—setting priorities—and flows through to the last step—executing and
evaluating the Business Transformation—would help the Components to apply the five-step
process to their mission needs and align their systems to the BEA. Therefore, BTA should revise
the BTG to include complete instructions for the Components to follow and examples that show
how each of the five steps relate to each other and the listed considerations.

Data Migration Best Practices
Neither the ETP nor the BTG discussed best practices for data migration. Basic data migration
best practices include identifying the data and data backup, data mapping, data cleansing,
transforming the data, validating converted data, and ensuring that migrated data moved as
anticipated. The ETP and BTG did not include instructions for mapping user expectations and
needs, identifying data sources and targets, evaluating the data quality, analyzing gaps between
the current capabilities and potential capabilities, or assessing the effort required to design, code,
test, and implement the data migration at the Component level or program level. Neither the
ETP nor the BTG discussed data integrity, policies, processes, procedures, controls
improvements, and implementation of integrated systems. In addition, neither document


                                                      5

addressed information assurance standards and requirements nor how the Components should
implement those standards and requirements during system conversion to the BEA structure.

Without data migration best practices, detailed instructions for a standard methodology, and
examples for the Components to follow, the BTA data migration strategy jeopardized the
Components’ ability to deploy consistent financial management systems that can achieve BEA
compliance. The Enterprise-level approach described in the ETP and BTG did not provide the
guidance and support that Components needed to align their systems to the BEA. Without clear
and detailed guidance for implementing data migration across DoD systems, the Components
will have difficulty achieving and maintaining the high-quality data that are critical to: (1) being
able to track transactions throughout the enterprise, (2) enhancing business intelligence,
(3) linking resources to business outcomes, and (4) eliminating weaknesses and deficiencies.
Because one of the goals of DoD is to achieve interoperable business processes, data migration
should be developed and implemented in a standardized process. Therefore, we recommend that
BTA revise the BTG to include a detailed, systematic, standardized methodology that would
prescribe best practices for data migration, data integrity, and the overall transition into the BEA
structure across DoD.

BEIS Data Migration Schedule
The BEIS data migration schedule was unrealistic because BTA planned to transfer the
functionality of 13 DFAS legacy systems to BEIS by FY 2020, but it had not coordinated with
DFAS to determine when and the sequence in which the legacy systems’ functionality should be
transferred to BEIS. The lack of coordination with DFAS means that it may take 11 years for
BTA to transfer legacy system functionality to BEIS and may cost the DoD $231 million. With
the rapid changes in technology, DoD may be at risk for not realizing its goals of financial
management improvement and access to accurate and reliable information under the BEIS family
of systems concept in a timely manner.

The ETP contained a master list of target systems and related legacy systems, along with
potential migration dates. For BEIS, the ETP master list showed 13 of 15 legacy systems with a
final migration date of September 30, 2020 (see Appendix B). However, the master list did not
show a detailed schedule of when, during the 11 years from FY 2009 to FY 2020, the
functionality of those legacy systems would transfer into BEIS. In addition, the ETP did not
provide a critical path for the order in which legacy system functionality would migrate.
Effective project management should include critical path techniques such as listing all activities
required to complete the project, the time allowed to complete them, and related dependencies
between the activities.

When asked about the transition of the 13 legacy systems’ functionality into BEIS, BTA officials
stated that they did not know when the transfers would occur because DFAS still owned the
systems. BTA had not coordinated with DFAS to develop a detailed project plan or critical path
to ensure that FY 2020 was a realistic migration completion date.

The ETP stated that for FY 2009, BTA planned to spend about $21 million on BEIS. After
11 years, assuming that the FY 2009 BEIS budget amount continued in future years, DoD could
spend up to $231 million to achieve this financial management goal. According to the ETP,
BEIS supports the DoD goal for financial management improvement by providing immediate
access to accurate and reliable financial information, which would allow efficient and effective
decision-making. Given rapidly changing technology, the lack of coordination with DFAS, and
the 11-year timeline for transferring legacy system functionality, DoD is at risk for not meeting
its financial management goal. By outlining dependent and related activities and reducing
redundant efforts, a critical path data migration strategy may help to reduce the potential 11-year
timeline and may reduce the $231 million potential cost. Therefore, we recommend that BTA


                                                 6

coordinate with DFAS to develop a detailed data migration strategy that identifies key
milestones and a critical path for transferring the functionality of the 13 legacy systems to the
BEIS family of systems.

Recommendations, Management Comments,
and Our Response
During the comment period, the BTA was reorganized under the Assistant Deputy Chief
Management Officer, who responded for the Department.

A. We recommend that the Director, Defense Business Transformation Agency:

1. Revise the Business Transformation Guidance to include complete instructions for the
Components to follow and examples that show how the five steps relate to each other and
the listed considerations. In addition, include in the revision a detailed, systematic,
standardized methodology that would prescribe best practices on data migration, data
integrity, and overall transition into the Business Enterprise Architecture environment
across the Department of Defense.

Assistant Deputy Chief Management Officer Comments
The Assistant Deputy Chief Management Officer (Assistant Deputy) partially agreed, stating that
BTA was in the process of developing a concept of operations, detailing data integrity and data
migration activities, with an expected release date in 4th quarter FY 2009. However, the
Assistant Deputy disagreed with revising the BTG to include data migration and data integrity
activities because the intent of the BTG was not for that purpose and other documents provide
that level of detail.

Our Response
The Assistant Deputy’s comments are partially responsive. The Assistant Deputy comments on
BTA development of a concept of operations only addressed the data migration and data
integrity portion of the recommendation. Therefore, we request a listing of the documents that
provide the prescribed detail. We also request additional comments on how and to what extent
the concept of operations would provide instructions for the Components to follow, examples
that show how the five steps relate to each other and the listed conditions, and overall transition
into the BEA across DoD.
2. Coordinate with the Defense Finance and Accounting Service to develop a detailed data
migration strategy that identifies key milestones and a critical path for the migration of the
13 legacy systems into the Business Enterprise Information Services.

Assistant Deputy Chief Management Officer Comments
The Assistant Deputy partially agreed that the Department should develop a detailed data
migration strategy for those systems whose data would require migration to BEIS. The
comments indicated that the details about whether all 13 systems would require data migration
are currently under development and that once determined, the data migration strategy could be
developed. The comments also indicated that BTA and DFAS are working together on this
effort and would provide regular status updates, when requested.

Our Response
The Assistant Deputy’s comments are partially responsive. The Assistant Deputy agreed with
the need for a data migration strategy and coordination with DFAS, but indicated that


                                                 7

determining whether all of the systems would require data migration and developing a detailed
strategy for this are under way. Therefore, we request additional comments on whether the items
under development would address key milestones or a critical path for transferring the legacy
system functionality into BEIS and the anticipated date for developing the data migration
strategy.




                                               8

Finding B. Information Assurance 

A potential conflict of interest existed in the BEIS information assurance certification and
accreditation process because BTA had designated the same individual to serve as both
Certifying Authority (CA) and Designated Accrediting Authority (DAA) for the BEIS family of
systems. Also, the BEIS security plan did not meet OMB and DoD requirements because it was
not comprehensive and did not include procedures for reporting and resolving security incidents,
training before granting system access, and testing for continuity of operations for the three
essential systems under BEIS. As a result, the BEIS certification and accreditation authorities
may have accepted undue risk when accrediting BEIS for operation.

Certification and Accreditation
A conflict of interest 2 may exist because BTA named the same individual as the CA and the
DAA for the BEIS family of systems. The DAA issued an Authority to Operate (ATO) for the
BEIS family of systems on November 14, 2008. An ATO is a formal notification of an
accreditation decision by a DAA to accept the risk associated with operating a DoD information
system. An ATO signifies that a DoD system has adequately implemented all assigned
information assurance controls.

While preparing to obtain the ATO, the certification authority recommended that severity codes
for 9 of the 13 reported security weaknesses listed in the July 2008 BEIS Plan of Action and
Milestones (POA&M) be lowered. This was significant because system weaknesses are assigned
severity codes to indicate risk level and the urgency for corrective action. Category 1
weaknesses were the most severe, and the system owner must correct them before obtaining an
ATO. Category 2 weaknesses were moderately severe, and the system owner must correct them
or satisfactorily mitigate them before obtaining an ATO. Category 3 were the least severe and
do not prevent a DAA from issuing an ATO.

Six of the nine weaknesses were lowered from Category 2 to Category 3, and a Category 1
weakness was lowered to Category 2. The lowered Category 1 weakness indicated that the
configuration control board 3 had not held regular meetings, and had not assessed subsequent
system change requests for information assurance impact prior to implementation. This is
significant because from FY 2006 to FY 2008, the program managers for the three essential
systems for BEIS had submitted 1,209 system change requests.
An individual who serves as both the CA and the DAA, has the ability to recommend lowered
category codes and then approve them, creating a lack of segregation of duties and a potential
conflict of interest. The magnitude of risk increases with each system migration, and the
potential migration of 13 legacy systems into BEIS represents a high level of risk (Finding A).
Without regular meetings of the configuration control board to assess the information assurance
impact of system change requests, the ATO’s purpose of accepting the risk for system
accreditation loses its significance. Therefore, BTA should appoint separate individuals to the
certification and accreditation functions and positions to ensure that other missions or business


2
  A conflict of interest and lack of independence exist when an individual has both certifying authority and
accrediting authority for the same system. Dividing duties among two or more individuals diminishes the likelihood
that errors and wrongful acts could go undetected, because the activities of one individual would serve as a check on
the activities of the other.
3
  The DoD configuration management process includes a configuration control board that meets regularly and
implements procedures to ensure a security review and approval of all proposed DoD information system changes.


                                                         9

functions relying on the BEA are not compromised. In addition, BTA should ensure that the
BEIS configuration control board meets regularly to review and approve all system change
requests prior to implementation.

Security Planning
BTA had not developed a comprehensive plan that included procedures for reporting and
resolving security incidents, training before granting system access, and testing for continuity of
operations for the three essential systems under BEIS.

BTA stated that its BEIS certification and accreditation package met the requirements for a
security plan. The BEIS certification and accreditation package included:

   	 a summary report that contained only a list of weaknesses, their corresponding control
      numbers, and severity;

   	 a System Identification Profile that listed only items such as system name, version or
      release number, system description, and accreditation; and

   	 a POA&M of listed security weaknesses.

In addition, BTA issued the BEIS Acquisition Information Assurance Strategy in June 2008. Its
purpose was to provide the groundwork for integrating information assurance management into
the BEIS family of systems. The strategy included a high-level discussion on the data flow from
the three essential systems under BEIS.

However, neither the documents contained in the BEIS certification and accreditation package
nor the BEIS Acquisition Information Assurance Strategy provided a comprehensive plan that
met the requirements prescribed in OMB Circular A-130, Appendix III, “Security of Federal
Automated Information Resources,” November 28, 2000, and DoD Instruction 8500.2,
“Information Assurance Implementation,” February 6, 2003.

OMB A-130 requires agencies to ensure that information is protected at a level commensurate with
the risk and magnitude of the harm that would result from the loss, misuse, or unauthorized access to
or modification of such information. OMB A-130 also states that agency security plans include
rules of the system, training, personnel controls, incident response capability, continuity of
operations, technical security, and system interconnection. DoD Instruction 8500.2 requires that
agencies implement a system security plan as part of their information assurance documentation
that describes the technical, administrative, and procedural information assurance program. It
must also identify specific requirements and objectives for data handling, dissemination, system
redundancy, and emergency response.

Without a comprehensive security plan in place, BTA has no assurance that BEIS has a level of
protection commensurate with the risk and potential magnitude of loss, misuse, or unauthorized
access. In addition, the lack of segregation of duties discussed previously in this finding,
combined with the request and implementation of 1,209 system changes, means that BTA may
have been unaware of some BEIS risks when it issued the November 2008 ATO. Therefore,
BTA should develop a comprehensive, overall security plan that meets OMB Circular A-130,
Appendix III, and DoD Instruction 8500.2 requirements and develop procedures for testing those
requirements annually.




                                                 10

Recommendations, Management Comments,
and Our Response
The Assistant Deputy Chief Management Officer responded for the Department.

B. We recommend that the Director, Business Transformation Agency:

1. Separate the roles of Certifying Authority and Designated Accrediting Authority by
assigning them to two individuals.

Assistant Deputy Chief Management Officer Comments
The Assistant Deputy disagreed and stated that BTA is fully compliant with DoD Instruction
8510.01, “DoD Information Assurance Certification and Accreditation Process (DIACAP),”
November 28, 2007, which does not require the CA and the DAA to be separate individuals. In
addition, the comments stated the CA and DAA resided within the Office of the Chief
Information Officer and reports to a directorate that is organizationally separate from the
program-level information assurance officers. The CA and DAA have no Directorate-level
organizational affiliation with the system owners. In addition, because of limited staff size, there
are no plans to separate the two roles at this time.

Our Response
The Assistant Deputy’s comments are partially responsive. Although the Assistant Deputy cites
the DIACAP as reason for having one individual perform the duties of both the CA and DAA
positions, the fact that the CA/DAA resides in a different office from the system owners does not
satisfy the safeguard that assigning these responsibilities to separate individuals would
accomplish.

In May 2004, the National Institute of Standards and Technology issued Special Publication 800-
37, “Guide for the Security Certification and Accreditation of Federal Information Systems.”
This guide states that independence of the certification agent is an important factor in assessing
the credibility of the security assessment results and ensuring that the authorizing official
receives the most objective information possible in order to make an informed, risk-based
accreditation decision. In addition, the guide states that caution be exercised when one
individual fills multiple roles in the security certification and accreditation process to ensure that
the individual retains an appropriate level of independence and remains free from conflicts of
interest. Because the BEIS staff member who serves as CA/DAA is able to recommend changes
to the severity codes and then approve those same changes, the potential for conflict of interest
exists. The lack of independence between the two positions does little to ensure a sound security
posture for the information systems and diminishes the acceptable level of risk typically assumed
with the issuance of the ATO. Therefore, we request that the Assistant Deputy reconsider her
position and designate two individuals—one to serve as the CA and another to serve as DAA.

2. Ensure that the Business Enterprise Information Services configuration control board
meets regularly to review and approve all system change requests prior to implementation.
Assistant Deputy Chief Management Officer Comments
The Assistant Deputy agreed, but did not provide any other information.




                                                 11

Our Response
The Assistant Deputy’s comments are partially responsive. Although the Assistant Deputy
agreed, the comments did not provide any further information. Therefore, we request additional
comments on when the configuration control board would meet, how and to what extent they
would review and approve all system change requests before implementation, and expected
completion date of any procedures or policies issued.

3. Develop a comprehensive, overall security plan that meets Office of Management and
Budget Circular A-130, Appendix III, and DoD Instruction 8500.2 requirements, and
develop procedures for testing those requirements annually.

Assistant Deputy Chief Management Officer Comments
The Assistant Deputy disagreed, but recognized the need for strong plans for adhering to
applicable security guidelines. However, the comments stated that because of the diversity of
BTA’s programs, the DoD’s position was that having each program maintain its own set of
comprehensive security documents and prepare its own exhibit to comply with OMB
Circular A-130, Appendix III, was beneficial to overall security.

Our Response
The Assistant Deputy’s comments are partially responsive. The Assistant Deputy comments did
not state how and when comprehensive security exhibits would be prepared for DCD/DCW,
DDRS, and DCAS that would comply with OMB Circular A-130, Appendix III, and DoD
Instruction 8500.2 requirements. Therefore, we request additional comments on how and when
the comprehensive security exhibits for those requirements are to be developed and tested.




                                               12

Finding C. Financial Reporting Compliance
BTA did not fully comply with financial reporting requirements of the Federal Financial
Management Improvement Act of 1996 (FFMIA) and the Federal Managers Financial Integrity
Act of 1982 (FMFIA) because BTA had not developed a methodology for performing a complete
FFMIA assessment of the BEIS family of systems since obtaining system ownership in 2005. As
a result, BTA had no assurance that the 1,209 system change requests submitted for the BEIS
family of systems do not conflict with FFMIA requirements and make its FMFIA annual
Statement of Assurance inaccurate.

Compliance With FFMIA
BTA had not tested BEIS, as a family of systems, for FFMIA compliance, although BTA
obtained ownership of BEIS in 2005. The FFMIA requires agencies to have financial
management systems that substantially comply with the Federal financial management system
requirements. The three essential systems under BEIS did not have recent tests for FFMIA
compliance. For example, as the previous system owner, DFAS tested DCD/DCW in 2004 and
DCAS in 2006. DFAS also tested two of the three DDRS modules: the Audited Financial
Statement module (in March 2001) and the Budgetary Reporting module (in August 2002). The
third module, Data Collection, was not tested.

BTA had not developed a methodology for performing a complete FFMIA compliance
assessment of the BEIS family of systems. BTA stated that it planned to conduct a BEIS
assessment after obtaining Milestone C approval. 4 In addition, because BTA did not have
configuration control board meetings, it had no assurance that the 1,209 system change requests
(Finding B) did not adversely affect BEIS compliance with FFMIA technical and administrative
requirements.

OMB A-127, “Financial Management Systems,” states that each agency must have an ongoing
financial systems improvement planning process and perform periodic reviews of its financial
systems capabilities. The “Office of Federal Financial Management: Core Financial System
Requirements,” January 2006, provides Federal mandatory functional and technical financial
management system requirements that must be met to be compliant with Federal standards
mandated by the FFMIA. Because BTA had not recently tested BEIS as a family of systems,
and had not developed a methodology for conducting the tests, it had no assurance that BEIS met
the FFMIA financial system requirements. Therefore, BTA should develop a methodology for
implementing an annual assessment of the BEIS family of systems in accordance with FFMIA
requirements.

Statement of Assurance Accuracy
BTA did not fully report internal control results as required under FMFIA. The BEIS Statement
of Assurance issued on August 29, 2008, listed no material weaknesses. Section 4 of the FMFIA
requires an annual statement by the agency head indicating whether the financial management
systems conform to Federal financial management system requirements. FMFIA also requires
that if the agency’s systems do not substantially conform to financial systems requirements, the
statement of assurance must report those instances and discuss the agency's plans for bringing its
systems into substantial compliance. Because of the BEIS system change requests and lack of

4
 Achieving Milestone C means that the Milestone Decision Authority authorizes limited deployment in support of
operational testing for the major acquisition information system. BEIS obtained Milestone C approval on April 29,
2009.


                                                       13

recent FFMIA compliance testing, the 2008 Statement of Assurance showing no material
weaknesses may be inaccurate. Therefore, BTA should assess whether the BEIS family of
systems complies with FFMIA mandatory and technical Core Financial Management System
requirements and FMFIA standards. In addition, BTA should develop a remediation plan for
correcting any deficiencies noted.

Recommendations, Management Comments,
and Our Response
C. We recommend that the Director, Business Transformation Agency:

1. Develop a methodology for implementing an [annual] assessment of the Business
Enterprise Information Services family of systems, in compliance with the Federal
Financial Management Improvement Act of 1996 Core Financial Management System
requirements.
Assistant Deputy Chief Management Officer Comments
The Assistant Deputy disagreed and stated that FFMIA does not require an annual assessment.
The comments stated that BEIS is achieving FFMIA compliance in increments. DDRS and
DCD/DCW achieved compliance in 2001 and 2004 respectively (Increment 1). On March 31,
2009, the Acting Defense Business Systems Acquisition Executive agreed to move DCAS to
Increment II where testing for interoperability and FFMIA would occur. DCAS plans to achieve
compliance before obtaining a Full Deployment Decision Review no later than first quarter 2011.

Our Response
We consider the comments partially responsive. FFMIA does not specifically require an annual
assessment, but the Core Financial System Requirements implements the provisions of FFMIA
and OMB A-127, “Financial Management Systems,” July 23, 1993, and states that each agency
must have an ongoing financial systems improvement planning process and perform periodic
reviews of its financial system capabilities. Although BEIS (Increment 1) received Milestone C
approval in April 2009, the Milestone C Acquisition Decision Memorandum did not address
FFMIA as a necessary requirement. With the submission of 1,209 system change requests from
FY 2006 through FY 2008 for the three essential systems, DDRS and DCD/DCW compliance
with FFMIA may be in jeopardy.

In addition, DCAS reports expenditure data to the Treasury and includes the processing of
transactions by others and for others and the performance of other Treasury and departmental
functions. Waiting until 2011 to test interoperability and FFMIA compliance means that a
portion of the BEIS family of systems would not achieve compliance for approximately 2 years.
It is essential that DCAS be compliant with FFMIA because Fund Balance with Treasury
Management is a Core Financial System Requirement. Therefore, we request that the Assistant
Deputy reconsider DoD’s position, and provide additional comments on currently assessing
DCD/DCW and DDRS for potential noncompliance and on the DCAS testing timeframe.

2. Assess whether the Business Enterprise Information Services family of systems complies
with Federal Financial Management Improvement Act of 1996 mandatory functional and
technical Core Financial Management System requirements and the Federal Managers
Financial Integrity Act of 1982 standards, and develop a remediation plan for correcting
any deficiencies noted.




                                              14

Assistant Deputy Chief Management Officer Comments
The Assistant Deputy partially agreed with the recommendation. The Assistant Deputy agreed
with assessing BEIS against FFMIA requirements. However, the comments reiterated the
response to recommendation C.1. on the compliance of DCD/DCW, and DDRS and the future
compliance of DCAS. The comments also stated that a Management Control Matrix is
submitted annually for the BEIS family of systems. In addition, the comments stated that
development of a remediation plan was not required because there were no material weaknesses
identified through FFMIA and FMFIA assessments.

Our Response
The Assistant Deputy’s comments are partially responsive. The Assistant Deputy agreed with
assessing BEIS against FFMIA requirements, but the comments appear to be in conflict. BEIS
includes three essential systems, DCD/DCW, DDRS, and DCAS. However, the comments state
that DCD/DCW and DDRS are FFMIA compliant and that DCAS is scheduled for testing in
2011.

FFMIA states that agencies are to implement and maintain financial management systems that
comply substantially with financial management systems requirements. FMFIA requires that if
the agency’s systems do not substantially conform to financial systems requirements, the
statement of assurance must report those instances, and discuss the agency’s plans for bringing
its systems into substantial compliance. One of the systems within the BEIS family of systems is
not compliant, thus there should be a FFMIA assessment.

In addition, because of the 1,209 BEIS system change requests and no recent testing against the
financial management system requirements, it is unclear whether there really were no material
weaknesses for BEIS family of systems, and whether the 2008 Statement of Assurance was
accurate. Therefore, we request additional comments on when the complete assessment for
BEIS against FFMIA requirements is to occur and whether there is a need for developing a
remediation plan.




                                               15

Appendix A. Scope and Methodology
We conducted this performance audit from February 2008 to March 2009 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

Our initial audit scope included the review of BEIS as an individual system. After discussions
with the Business Transformation Agency BEIS Program Executive Officer, we learned that
BEIS is a family of three separate, essential systems. Therefore, we did not evaluate BEIS
enterprise level capabilities for financial reporting and we revised our scope to a review of BEIS
documentation for the two remaining objectives and a review of the BTA management and
oversight for the BEIS implementation and deployment. We briefed BTA management on the
change of scope on April 18, 2008.

We assessed the effectiveness of information assurance documentation on the three essential
systems of the Business Enterprise Information System. We inspected System Security
Authorization Agreements, System Information Plans, and other relevant control documentation
located at the three program management offices and the Business Transformation Agency. We
interviewed the BEIS Program Executive Officer; the program managers for Defense
Departmental Reporting System and the Defense Cash Accountability System; and the
Enterprise Integration Office Director at the Business Transformation Agency, Arlington,
Virginia. We also interviewed the DFAS Corporate Database/DFAS Corporate Warehouse
program manager and the BEIS Information Assurance Officer, located in Indianapolis, Indiana.

We used the following criteria to perform this audit:

   	 DoD Instruction 5105.80, “Defense Business Transformation Agency (BTA),” 

      November 12, 2008, 


   	 DoD Instruction 8500.01E, “Information Assurance (IA),”April 23, 2007

   	 DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,
      January 4, 2006,

      DoD Instruction 5000.2, “Operation of the Defense Acquisition System,”

       May 12, 2003, and 


   	 DoD Instruction 8500.2, “IA Implementation,” February 6, 2003.

We also used the following applicable laws and regulations: the Federal Financial Management 

Improvement Act of 1996; the Federal Managers Financial Integrity Act of 1982; 

OMB Circular A-123, “Revisions to OMB Circular A-123, Management’s Responsibility for 

Internal Control,” December 21, 2004; OMB Circular A-127, “Financial Management Systems,” 

July 23, 1993;OMB Circular A-130, “Management of Federal Information Resources, 

Transmittal 4,” November 30, 2000, and National Institute of Standards and Technology Special 

Publication 800-37, “Guide for the Security Certification and Accreditation of Federal 

Information Systems,” May 2004. 





                                                16

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the Department of
Defense Inspector General (DoD IG) have issued nine reports discussing the business
transformation and the BEIS. Unrestricted GAO reports can be accessed over the Internet at
www.gao.gov. Unrestricted DoD IG reports can be accessed at www.dodig.mil/auditreports.

GAO
GAO Report No. GAO-09-586, “DOD Business Systems Modernization: Recent Slowdown in
Institutionalizing Key Management Controls Needs to Be Addressed,” May 18, 2009

GAO Report No. GAO-08-462T, “Defense Business Transformation: Sustaining Progress
Requires Continuity of Leadership and an Integrated Approach,” February 7, 2008

GAO Report No. GAO-07-733, “DoD Business Systems Modernization: Progress Continues to
Be Made in Establishing Corporate Management Controls, but Further Steps Are Needed,”
May 14, 2007

GAO Report No. GAO-07-229T, “Defense Business Transformation: A Comprehensive Plan,
Integrated Efforts, and Sustained Leadership Are Needed to Assure Success,” November 16,
2006

GAO Report No. GAO-06-219, “DoD Business Systems Modernization: Important Progress
Made in Establishing Foundational Architecture Products and Investment Management Practices,
but Much Work Remains,” November 23, 2005

GAO Report No. GAO-05-702, “DoD Business System Modernization: Long-standing
Weaknesses in Enterprise Architecture Development Need to Be Addressed,” July 22, 2005

DoD IG
DoD IG Report No. D-2007-087, “Internal Controls Over Army General Fund Transactions
Processed by the Business Enterprise Information Services,” April 25, 2007

DoD IG Report No. D2006-068, “Financial Management: Implementation of the Business
Enterprise Information Services for the Army General Fund,” March 31, 2006

DoD IG Report No. D2006-008, “Defense Departmental Reporting System and Related
Financial Statement Compilation Process Controls Placed in Operation and Tests of Operating
Effectiveness for the Period October 1, 2004, through March 31, 2005,” October 24, 2005




                                              17

Appendix B. Future BEIS System Transitions 

System Name                               End Migration Date                System Turn-Off Date

Collection and Expenditures
Processing Reconciliation (CEPR)                  To Be Determined                  To Be Determined

Cash History On-Line Operator
Search Engine (CHOOSE)                            9/30/2020                         To Be Determined

Cash Reconciliation System (CRS)                  9/30/2020                         To Be Determined

Departmental Financial Reporting and
Reconciliation (DFRR)                              9/30/2020                        To Be Determined

Deposit In Transit (DIT)                          9/30/2020                         To Be Determined

Disbursing Returns Overseas and
Afloat Activities (DRO)                            9/30/2020                        To Be Determined

Financial Operations Support (FOS)                9/30/2020                         To Be Determined

Financial Reporting System -
Accounting (FRS-Acctg)                            10/30/2007                        12/30/2008

Headquarters Accounting and
Reporting System (HQARS)                          9/30/2020                         To Be Determined

International Balance of Payments
(IBOP)                                            9/30/2020                         To Be Determined

Navy Prompt Payment Interest (NPPI)               9/30/2020                         To Be Determined

Check Recertification (RECERT)                    9/30/2020                         To Be Determined

Standard Accounting, Budgeting and
Reporting System (SABRS)                          9/30/2020                         To Be Determined

Suspense/Aging Monitoring System
(SAMS)                                            9/30/2020                         To Be Determined

Transactions By Others (TBO)                       9/30/2020                        To Be Determined

Note: Although the Enterprise Transition Plan September 2008, Appendix A, shows 15 systems migrating to BEIS,
only 13 of these 15 systems were to migrate by 2020.
Source: BTA, Enterprise Transition Plan, September 2008, Appendix A



                                                     18

Appendix C. Glossary of Technical Terms
Business Transformation Guidance. The Business Transformation Guidance provides a five-
step process for transforming DoD business operations. The steps include:

   1.   setting priorities (identify desired outcomes),
   2.   analyzing and approving a solution (analyze the problem),
   3.   building and refining a required architecture and transition plan,
   4.   defining and funding the programs, and
   5.   executing and evaluating the business transformation

Component-level Business Transformation. Components develop strategies, schedules, and
budgets for their Component Transformation, then implement these plans. Components are
responsible not only for executing their individually assigned missions, but also for ensuring that
joint operations run smoothly and that information flows freely across the enterprise so the DoD
can function as a cohesive whole.

Configuration Management. The DoD configuration management process includes
requirements for formally documenting configuration management responsibilities; a
configuration control board that implements procedures to ensure a security review and approval
of all proposed DoD information system changes; a testing process to verify proposed
configuration changes prior to implementation; and a verification process to provide additional
assurance that the configuration process is working effectively and that changes outside the
process are technically or procedurally not permitted.

Data migration. The process of translating data from one format to another and may involve
the restructuring of data by merging fields or changing formats. Data migration transforms data
from a variety of transactional, legacy, current, and historical data sources into a new
representation of the data. This requires the data to be:

       profiled and extracted from current systems,
       cleansed of incorrect, redundant or outdated records,
       transformed into the new data representations,
       tested to ensure that the data migrated correctly, and
       loaded into the new application environment.

Defense Acquisition System. According to DoD Instruction 5000.2, “Operation of the Defense
Acquisition System,” May 12, 2003, Milestone C authorizes entry into deployment in support of
operational testing for major acquisition information systems. The Milestone Decision Authority
commits DoD to production at Milestone C.

Designated Accrediting Authority. The official with the authority to assume formal
responsibility for operating a system at an acceptable level of risk. This term is synonymous
with Designated Approving Authority and Delegated Accrediting Authority.

DoD Information System. Set of information resources organized for the collection, storage,
processing, maintenance, use, sharing, dissemination, disposition, display, or transmission of
information. Includes automated information system applications, enclaves, outsourced
information technology-based processes, and platform interconnections.

Enterprise. Refers to the Department of Defense, including all of its organizational entities.


                                                 19

Enterprise Architecture. A management practice for aligning resources to improve business
performance and help agencies execute their core missions. An enterprise architecture describes
the current and future state of the agency, and lays out a plan for transitioning from the current
state to the desired future state.

Enterprise-level Transformation. This includes data standards, business rules, specific
systems, and an associated integration layer of interfaces for the Components. These standards
are established through cooperation and represent the “rules of engagement” to which all DoD
Components must adhere. Thus, while the Department is not dictating how to transform, it is
ensuring that each Component’s transformational program increases the Department’s ability to
reap the benefits of improved information exchange across organizational boundaries. This type
of integration will drive the Department down the path to interoperability and accelerate the
Services’ transformation efforts.

Information Assurance. Measures that protect and defend information and information systems
by ensuring their availability, integrity, authentication, confidentiality, and nonrepudiation. This
includes providing for restoration of information systems by incorporating protection, detection,
and reaction capabilities.

Information Assurance Certification and Accreditation. The standard DoD approach for
identifying information security requirements, providing security solutions, and managing the
security of DoD information systems.

Information Assurance Control. An objective information assurance condition of integrity,
availability, or confidentiality achieved through the application of specific safeguards or through
the regulation of specific activities expressed in a specified format (such as a control number, a
control name, control text, and a control class). Specific management, personnel, operational,
and technical controls are applied to each DoD information system to achieve an appropriate
level of integrity, availability, and confidentiality.

Milestone C. Achieving Milestone C means that the Milestone Decision Authority authorizes
entry into limited deployment in support of operational testing for the major acquisition
information system.

Tiered Accountability. DoD implemented tiered accountability for accomplishing the overall
business transformation. It requires each tier in the DoD organizational hierarchy to focus on
only those requirements that are relevant for that specific tier. The three accountability tiers are:

      Enterprise Level. At the Enterprise tier, the Defense Business Systems Management
Council, the Principal Staff Assistants, and the Business Transformation Agency work with the
Components to create architectures, develop plans, make decisions, and manage the execution of
DoD-wide business capability improvements.

        Component Level. The Components are responsible for developing and maintaining
their architecture transition plans, cost and schedule data, and performance data that should detail
their priorities and integration with the Business Enterprise Architecture and the Enterprise
Transition Plan. The Components are charged as pre-certification authorities for performing the
necessary due diligence that would ensure compliance is achieved and certifies achievement
during the annual investment review process and at appropriate milestone decision points.

        Program Level. Program managers and program executive officers ensure program
information is current, complete, and accurate. They are responsible for developing the program
transition plan that integrates with transition plans at the enterprise and Component levels.


                                                 20

Management Comments 


  Assistant Deputy Chief Management Officer Comments




                        OFI'"ICE OF D£PUTY C HIl!I' MANAG EMEN T OFFICER
                                           1010 D IVItNS& f'£HTA _
                                          W4SHINGTON. gc &0101 '10'0




                                                                                IlAT -1 2009
        Ms. HoUy Willi .....
        ProgamDireet«
        Automated Finandal Sy51nM Division
        Defense Business Operali_
        Dqetmem of lleferue Office of lrospector 0cncr.I
        400 Army Navy Drive
        Attin&\on. VA 22202-4104

        Dcar Ms. Wi lliams :

               This is the IXparIment of Ocfensoo (DoD) respon$C' to the Dor> [nspc:clorGeneraI
        (10) d~ft rcp<)rt on the "Data Migr.lion Stralegy and Information AssunJ\C'e for the
        BlISions Enlcrpri:tC Infonnation Services (9 EIS), ~ tIatcd March 23, 2009 <ProjOCl No.
        DlOO'-OOOOFB.()120.000).

               Of ille 5e\'U1 n::convnmdationa is&ued, the ~ COUI:W'1I ....·jlb 0lIl: ( R.2),
        pomaJly QOMIIII " 'illl three (A.I . A.2, and Col) and noo-c:onCUfS wittllhrec (8.1, 8J. aJId
        C. I). On n:conmmdatiollS wilt!. partial 000C\II"I"Q'l either the Depu1menl agm:s in
        prDciple ""iIh!he inlenl ofdle ruommerwIaliool, but bIG dtono:n ... altcmali ,'C path for
        ifI'Iplemcnllna the ~Iion or part of~ n:commclldallon 11\1)' roc.: bcapplicable.
        On r«O<nmcndatioos wilh. oon-<:ODCIII'TCIICC, c;-.lSling feda'al or DoD policies do nOi
        ~irc: the RWfIImcndcd action.

                The [)eportmmllpprml1C11 the DoD 10'. U!lCS5lTlellt or lbe BSS fami ly of
        J)1tenu,   II1d we wi ll «lnlinuc 10 eVl luate the pwwam 's dnll migration and Infonnati Otl
        assutVICc \(I ident ifY arc.. for continued improvement. All the Department continues 10
        move fOl'Wlrd, we welcome the DoD IG"s m..iglll and P'"n kipalion in ouron-aoioa
        dc fenJc: busi_ tran,formation effons.




                                                   fJ~e-
                                                   AsiUlanI Dq!uty ChiefMlbllaemeal Off",,""




                                                               21

 [)q>utmont of De f"'$< Respcnp
DoD Jnspennr Genet'llJ DrafI Repo"{l'tojeo:l No. D20Q8.0000fB-012MOO)
D.... Mi&rMion Stml"8.)'.no:! Infi>rmllioa ABunonce f« the BE IS


 RE COMMENDATION A. I; We recommend that the Director. Bus iness
Trans fonnation Ag..=ncy (8TA) revise ttle BU$intSS TrPJl'[ormation Guidan ce
( BTG) to include complete instroction for the Components to follow and examples
that mow how the five steps relate to each other and the listed considCl":ll.ti Cll\$. In
addition, ind ude in thl: revi sion II dela iled. systematic. standardized lfK'Ihodology
that would prescribe bc:5t prncticcs on Mill m igration, datil integrity, and overall
tnIr1sition into the Business EnterpriseArehitecture (BEA) environment ael"OSS the
Depanment o fDe[cnsc (Dol»

DOD RESPONSEi P.niliHy Concur.

The Department recognizes the need for further guidance concerning dala inlcgrity
and data migration. The BTA is in the proecs!! of developing 8 Concept o f
Oper.uions that detai ls thc=se activ itiei, with an expected release date o f 4th quarter
FY09.

However. the Department dOC$ 001 concur w ith including such additiOOli ill the
BTO because the document is not intended to provide the level ofdelailthat the
DoD 10 is prcs<:ribing. Per pagc 6 of the BTG, ftThe intenl of this guidance is to:
I) Frlltne the ovcrllll lJe feme Uusi ne$S Transformntion Approach; 2) Clilfify roles
ofpartidp.uls; 3) Establish common prOCCSSe$ to govern, manage, plan, and
execute businCMlrWtsforma tion at alllcveJs; !Md/ 4) [)cs(:ribe required
arehitecture Ind pl anning information. lITO do« nO( provide detail ed. step-by­
step procedwes for developing arehitecture producllI, transition plan prodllClll, or
program acquisition do<:umenlation.ll~~h ofthc:ie products has its own governing
documenlll thai provide this deta il.-

REC OMMENDATION A.2: We c«ommend that the Din:ctor. BusIDcss
Transformation Agen¢y coordinate with the Do:f<:nSC Finunce and Account ing
Service (DFAS) to develop a detai led data mignttion strategy that identifi es key
milestones and II critieol path for the migrati on of the 13 legacy sySlcms into the
Business Enterpris~ Informlllion Services (BE IS).

DOD RESPO NSE: Panitilly Cooeur.

For those systems whose data w ill require migTlltion to BEIS. the Department
concurs wi th tbe recommendation to dev~lop a detailed data migration strategy.
However, details regarding whether all 13 s)'I5tems 'will rcquil'¢ data migralion are
currentl y under devel opment. Once detcnnined, the datil migration strategy for the
systems Ihat will req uire migration can be devel oped. DFAS and BTA are


                                                                          p.    1 of~




                                               22

Doparunent of De fense RcsponKI
DoD InspectOr GMenll Draft RC'POI'I (Proj«t No. D2008-DOOOFS-<l120.000)
Om MiWVion SmlesY and Informal... iUsunI.... rQl"cbc SillS

committed co working lose-her onth; s effort and upon <eqUC$t will providc regular
Sl3tUS updal es.

RF. COMM.ENDAT ION 0 . 1 We m:ommend that the Oireclor, Business
T ral\$ formlltion Agency scpll11lte!he roles ofCenitying Authority (CA) ~nd
Dc5ignated Accrediting Authori ty (OM) by ItI;signinj th~,.... to two individuals.

000 RESPONSE: Non·Concur.

The BT A is fully compliant w ith the [)OD Informalion Assurance Certification and
Accred ilalion Process (DIACAP) rqu l3lion:; as stipulated in DoO Instruction
8051 0.0 1, whi<:h dOC$ not require the CA and OM to be separale Individuals.

Tho:: BTA reo;ogni1~ Ihe need 10 proccct!he security oflhe Agency's syStemS by
separating information IIl!5W"!1llCC roles and respOI"UIibili ties and mainlilining
appropriate checks and balances. The CA/DM, who resides within the Office of
!he Chiefin form. tion Officer (OCIO), rcpons to a DireClOTlltc that is
orgauilaliooally separu.tc from the Dirccloratcs that the program level in fonnation
assurance OffiCM are assigned under. Therefore. the CA/DAi\ has no Oi<ectoratc­
level organil.alion~l affiliation wi th Ihe system owneD. Additionlllly, duo: to
limited stafT size within the OCIO, there arc /10 plans to icparate the CA and DAA
roles at this time.

RECOMMENDATION B.2; We m:ommend that the Director. Business
Transfonnation Agency ensure that the BEIS configuration control board meets
regularly to review and approve all system change reques ts prior to
lmp l ~rmntarion .


DOD RESPONSE: Concur.

RECOMMENDATION B,3: WI; n:commend that !he OirC'Ctor, Business
TTlIn$formation Agen,y develop II o;omprehensive, 0\'<:1811 security plan that meets
OffiCI; of Mana gem enI (OMB) C ircular A-130, Appendix III, and 0 00 Inmu cti on
8500.2 requirements. wKi develop proo:edW"C$ for testing those requirements
annually.

OOD RESPONSE ; Non-Coocur.

The BTA re~O&" iU5 the need f.,.. str0ll& plll..O.S 10 eMUIe udhcrcncc with upplicable
security guidelines. 1·lowever, due 10 the d iv~ nature of the UTA '5 program!l, il
is !he Depar1mcnt 's posicion thaI il Is more beneficial overall security to have the


                                                                            h&c2of4




                                              23

Depllrtrnent of Defense Response
1)00 IIIspec:lorVeMral Dnll R.".,n (Project No. D200B·DOOOFB-O t20,000)
Data MillJ'lllon Strlt~""" I:ofonnoll"" ..... unn'" forth. DEIS

programs maintain their own set o f comprehemive security documenl.ll_ Each
program will prepsrt its 0"\"1'1 exhlbil lO comply wilh OM B Circu la r A- 110,
Appel'llJi>: Ill.

RECOMMENDATION C.lj We recommend thai the Director, Businen
Tl'IlfISformation Agcncy develop a melhodology for implementing an annual
assessment of the BEIS fami ly of systems, in compliance with the Federal
Fina:ncial Managemenllmpro ..'emenl ACI (FFM IA) o f 1996 Core Financia l
Management Sy!llcm rcquircrllcnlll .

DOD RESPONSE: Non-COflCUT

The FFMIA of 1996 does 001 require an annual assessment.

DEIS FFM IA compliancy is bei ng achieved in in cremenlS. Im;rementl, which
includes the Defense Departmental RtpOI'ting System (DDRS) and De fense
Cocpomte DatabaselDcfeusc Corporate Warehouse (DCDlDCW), achieved
compliance in 2001 and 2004, l'e$pCCrive ly. Incremcnr II, which indl.ldC$ lhe
Dl:fmse Cash Accountability System (DCAS), will achieve compliance prior 10
obtainini a ful l Deployment Decision Review, ~li mated no lat~ than I " quarter
Py I I. 1lK: Acting DDSAE hM approved this plan per the allaehed mcmora ndum
(Atl.aduncllt A).

RECOMMENDATION C,l: We recommend that the Director, IlllSinc!l!l
Transfonnalion Agency 11$_ whether the BEIS fllm ily of~tems compli es with
FFMIA of 1996 mandatory functional and techn ical CAm: Financial Manag.cmenl
System requirements Ilnd Ihe F<:dend MIlnPg..,~ Fioanc iul int.,:wity Act (FMF IA)
of 1982 Siandards, and devel op _ remediatioo plan fO£ oorrccting any deficienc ies
noted ,

non RFSPONSF.: Partially Concur.

The Department concurs with the requirement to assess BEIS against .' FMlA
requircmenl.ll. As stated in the Department 's rcsponill! for Reeommendalion C.I ,
Increment I (DDRS, DCDlDCW) compliance was achieved in 2001 and 2004,
respcct;lI<:ly, 10 crumre th.1 it substanlially conformed to firu!.ncial S)'stems
requirements, Increment II (OCAS) compliance will be ach ievcd prior to
ob\.lli ning D Full Deployment D« ision Review for this incrcment. Additionally, a
Managemen t Control Matrix has been ~ubmillcd tor the BEIS FllrTlily o( System!!
on an annual basis 6ince 2006.



                                                                          POg< l of4




                                              24

Dcpanm~nt of Dereoosc Respcm5C
DoD Inspector GCllU1lI Draft R~PQI1 (ProjcC'l No. D2008. DOOOFn.o 120.0(0)
Dala MiJftlIoll SlrlI~gy InC! Inromwion AMllranoo {or ,he SF-IS

However, beeau.'IC lhere have been no material weaknessn identified Ihmugh ttK:
FFMIA and FMFIA asse:nffients, de'o"elopmcnt ofa rem ed iation plan is not
currently n:quin:d .




                                                25

                          BUSINESS TRANSFORMATION AGENCY
                                       , ..,aouno .......ntUT
                                         _     TOIl. VA 22a2




MEMORANDUM

T HRU PROORAM EXECUTIVE OFF ICER ENTER PRISE FINANCE

FOR BUSINESS ENTERPRISE INFORMATION SERV ICES PROORAM MANAGER

SUBJ ECT, Appro>..1of Rusinc::S$ Enttl'flrise Information Ser.ices (BEIS) FlllllilyofSy$I<.mS (fuS)
FedonJ Fi!WIciai M&II&J:ICtrIC'Illmpruvaucnl Ac] (ffMlA)Cenifi~ioo Plan for Incr .......u l

I !Ipp1)\IC'tbc BusincJs En1CqlrifC InlQnnalioo S<r.Iiccs (BEIS) fomily ofSyslcmI (FoS) 1naancn] 1
plan for Federal Financial Managcmrnl ImpfO\'cmcm A~ (FFMIA)Ccrtificatioo ba5cdon
doc_ation pn::!ICIlIod.

I aFe IbM both elemenlSof BEIS FoS Incnm .... l, Deffttse 0epNtmenta! RqIOnina S~'JIem
(DORS).oo OMS COrporate DatabaselDFAS Coxponte Warehouse (OCOIDC'W). met !.he
certifICation m:j ~in:m"'l •• talod in the FFMIA of I~ (f'IIbllc law 104-208) and ho".,dmnnined
the exi ... inaapprovcd FFMlA ""nificatioa pd;qoes rorOO\b DCD/DeW.....s OORS "'tidy the
ffM IA catific:ati"" fur BEIS FoS In~11.

I ,J,..) _"'" ";111 the BEIS PM reoommmdarion 10 .." ....c the Ddmsc Cash AcoounIobititySy$tem
(OCAS) ponion or llle BEIS FOS in;\$ entirety 10 iocfemcnl ll whae il will under!o the required
lnteroperability(IOP) and I'FMIAIFFMR validations.

                                    Mr. TracyTyNn • • • • • • • • • • • • • •




                                             ~7~
                                             Kei E. So.1II1Ila1
                                             A -118 Director, Defense Bulinc.. Sy:nctnll
                                              cquilition Ex_rive
                                             Business TllWISfonn,alion Agmcy




                                              26
	
